DOE/IG-0542




               AUDIT
              REPORT


                               SOIL WASHING AT THE ASHTABULA
                                ENVIRONMENTAL MANAGEMENT
                                          PROJECT




                                        JANUARY 2002




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                     U. S. DEPARTMENT OF ENERGY
                           Washington, DC 20585

                               January 28, 2002


MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Soil Washing at the Ashtabula
                          Environmental Management Project"

BACKGROUND

The RMI Titanium Company's Earthline Technology Division (RMI) is the Department of
Energy's (Department) environmental restoration contractor at the Ashtabula Environmental
Management Project (AEMP) in Ashtabula, Ohio. RMI owns the Ashtabula property, formerly
known as the RMI Extrusion Plant, where the firm processed uranium for the Department and its
predecessor agencies. In March 1993, the Department awarded RMI a sole-source, cost-
reimbursable contract to clean the extrusion plant and adjacent grounds to a level that permits
release of the site for unrestricted use. The contract requires that RMI complete the project on or
about March 31, 2003. The Department estimated the project would cost about $237 million to
complete.

As part of the original decommissioning plan, RMI was required to excavate and ship about
40,000 tons of contaminated soil offsite for disposal. However, in January 1997, RMI began
testing a soil washing process designed to chemically extract uranium from contaminated soils.
Based on the test results, the Department expected that soil washing would reduce the volume of
soil requiring disposal by 95 percent, generate minimal amounts of radioactive wastewater, and
reduce cleanup costs by about $40 million. With the Department's approval, RMI spent over
$6 million of Department funds to design and build the soil washing complex. In May 2000,
RMI completed its first operating campaign in which it had hoped to process about 14,200 tons
of soil. Since the campaign ended, RMI has been evaporating radioactive wastewater generated
by the soil washing facility and researching alternatives to improve the performance and cost
effectiveness of the plant. No additional soil has been processed.

The objective of the audit was to determine whether the AEMP's soil washing project has met
the Department's performance and cost expectations.

RESULTS OF AUDIT

Despite investing over $6 million on a soil washing facility, the Department has not realized the
expected performance improvements or reductions in site remediation costs. In fact, in its first
campaign, the facility treated only 9,840 tons of soil, less than 70 percent of the soil prepared for
treatment. Further, the process generated over 240,000 gallons of radioactive wastewater, far
more than anticipated. We found that the soil treatment process had a number of known
technical problems which were not resolved by RMI prior to this costly effort. Further, until
recently, the Department did not adequately monitor RMI's activities to ensure that the facility
was operating as planned. As a result, the facility has provided little or no value-added benefit.
As important, washing the remaining soil could cost the Department between $6.1 million
and $13.3 million more than shipping the soil offsite for disposal. While we recognize that
disposal offsite has its own set of challenges, we concluded that the cost differential and
remaining technical problems associated with soil washing at RMI suggested that this process
be terminated.

MANAGEMENT REACTION

Management partially concurred with the audit finding and recommendations but disagreed
with some of our conclusions. A summary of management's comments, along with our
response, is included on page 5 of this report. We have also attached management's
comments in their entirety beginning on page 7.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Manager, Ohio Field Office
SOIL WASHING AT THE ASHTABULA ENVIRONMENTAL
MANAGEMENT PROJECT


TABLE OF
CONTENTS



                 Overview

                 Introduction and Objective ..........................................................1

                 Conclusions and Observations.................................................. 2


                 Costs Exceed Benefits

                 Details of Finding.......................................................................3

                 Recommendations and Comments ...........................................5


                 Appendices

                 Scope and Methodology.............................................................6

                 Management's Comments..........................................................7
OVERVIEW

INTRODUCTION AND   The RMI Titanium Company's Earthline Technologies Division (RMI)
OBJECTIVE          is the Department of Energy's (Department) environmental restoration
                   contractor at the Ashtabula Environmental Management Project
                   (AEMP) in Ashtabula, Ohio. RMI owns the property formerly known
                   as the RMI Extrusion Plant, where RMI processed uranium for the
                   Department and its predecessor agencies for the production of nuclear
                   fuel elements between 1962 and 1988. The Department awarded RMI a
                   sole-source, cost-reimbursable contract in March 1993 to clean the
                   extrusion plant and adjacent grounds to a level that permits release of
                   the site for unrestricted use. The contract requires that RMI complete
                   the project on or about March 31, 2003. The Department estimated the
                   project would cost about $237 million to complete. As of September
                   2001, the Department had spent about $103 million on the contract.

                   The original decommissioning plan required RMI to excavate and ship
                   about 40,000 tons of contaminated soil offsite for disposal. However,
                   in January 1997, RMI began testing a soil washing process at the
                   AEMP, which was designed to chemically extract uranium from
                   contaminated soils. Upon completion of the testing, RMI reported to
                   the Department that soil washing was a viable alternative to shipping
                   and disposal. This was based on a preliminary analysis that washing
                   the soil would be less expensive than offsite disposal. The Department
                   approved the construction of a soil washing plant at the AEMP and
                   determined that soil washing would save about $40 million.

                   RMI spent about $6.3 million of Department funds to design and build
                   the soil washing complex. Between June 1999 and May 2000, RMI
                   washed about 10,000 tons of soil in its first operating run (campaign).
                   Since the end of the first campaign, RMI has been evaporating
                   radioactive wastewater generated by the soil washing facility and
                   researching alternatives to improve the performance and cost
                   effectiveness of the plant.

                   The Office of Inspector General (OIG) recently issued two reports
                   concerning management of the AEMP. Audit Report DOE/IG-0541,
                   Remediation and Closure of the Ashtabula Environmental Management
                   Project (January 2002), determined that the remediation of the AEMP
                   was not on schedule to be completed by March 2003. Additionally,
                   Inspection Report DOE/IG-0530, Management of Personal Property at
                   the Ashtabula Environmental Management Project (November 2001),
                   concluded that RMI was not managing Government-owned personal
                   property in accordance with Departmental and other Federal property
                   management requirements.


Page 1                                                        Introduction and Objective
                  The objective of this audit was to determine whether the AEMP's soil
                  washing project has met the Department's performance and cost
                  expectations.

CONCLUSIONS AND   The AEMP's soil washing project has not met the Department's
OBSERVATIONS      performance and cost expectations. About 30 percent of the soil could
                  not be treated and about 246,000 gallons of radioactive wastewater were
                  generated during the first campaign. This occurred because RMI did not
                  solve known technical problems and, until recently, the Department did
                  not adequately monitor RMI's activities to ensure that the facility was
                  operating as planned. As a result, the Department invested $6.3 million
                  in a facility that provided little or no value-added benefit, and washing
                  the remaining soil could cost the Department between $6.1 million and
                  $13.3 million more than shipping the soil offsite for disposal.

                  This audit identified issues that management should consider when
                  preparing its yearend assurance memorandum on internal controls.




                                                              (Signed)
                                                       Office of Inspector General




Page 2                                                   Conclusions and Observations
COSTS EXCEED BENEFITS


Department Expected     The Department's goal at the AEMP is to clean the AEMP and adjacent
Soil Washing to         grounds to a level that permits release of the site for unrestricted use.
Minimize Waste and      The initial decommissioning plan required RMI to excavate and ship
Reduce Costs            contaminated soil offsite for burial. However, the Department later
                        approved RMI's proposal to wash contaminated soil onsite to minimize
                        disposal costs. The Department's Accelerating Cleanup: Paths to
                        Closure Strategy stated that the goal of soil washing at the AEMP was
                        to minimize waste and reduce the cost of remediation at the AEMP.
                        The Department expected that soil washing would reduce the volume of
                        soil requiring disposal by 95 percent, generate minimal amounts of
                        radioactive wastewater, and reduce cleanup costs by about $40 million.

Soil Washing Has Not    The soil washing project has not met the Department's performance and
Met the Department's    cost expectations. After the first production campaign, RMI determined
Expectations            that (1) about 30 percent of the soil could not be treated due to its clay
                        content, (2) soil washing generated about 246,000 gallons of radioactive
                        wastewater, and (3) soil washing would not reduce cleanup costs by
                        $40 million as originally estimated.

                        During the first production campaign, about 30 percent of the soil at the
                        AEMP could not be treated due to its high clay content. Of the 14,240
                        tons of soil excavated and prepared for treatment, about 4,400 tons
                        could not be treated. Thus, instead of reducing the volume of soil
                        requiring disposal by 95 percent, as originally expected, soil washing
                        reduced the volume requiring disposal by only 70 percent.

                        Also, contrary to the Department's expectations, the first campaign
                        generated about 246,000 gallons of radioactive wastewater. RMI
                        installed a uranium recovery system to prevent generating large
                        amounts of radioactive wastewater before the campaign began.
                        However, the system did not work as designed, and large amounts of
                        radioactive wastewater were generated. RMI has been evaporating the
                        wastewater, but 16 months after the end of the first campaign, about
                        4,000 gallons of radioactive wastewater remained to be treated.

                        Further, the Department will not realize the cost savings originally
                        estimated for soil washing at the AEMP. The cost savings have not
                        materialized because soil washing costs have increased and the cost of
                        offsite disposal has decreased since the estimate was prepared. In 1998,
                        RMI estimated that soil washing would cost about $325 per ton. Since
                        1998, soil washing costs have increased to about $440 per ton. During
                        the same period, the Department and RMI have reduced the cost of
                        offsite disposal by about 60 percent, from about $900 per ton in 1998 to


Page 3                                                                        Details of Finding
                              $340 per ton in October 2001. As a result, the cost of offsite
                              disposal is about $100 per ton less than the cost of soil washing.

RMI Did not Solve             The Department's expectations were not met because RMI did not
Technical Problems, and       solve known technical challenges to soil washing at the AEMP, and
the Department Did Not        the Department did not adequately monitor RMI activities. RMI
Monitor RMI Activities        reported in April 1995 that AEMP's soil was oversized and not
                              suitable for washing because it contained large volumes of clay. The
                              problem was not solved before the first campaign, and as a result,
                              about 30 percent of the soil could not be treated. After the first
                              campaign, RMI reported that "resolution of the oversize problem is
                              crucial to the financial success of the soil washing operation." As of
                              September 2001, RMI had developed a possible solution, but had not
                              demonstrated its effectiveness. Likewise, RMI was still reviewing
                              alternative solutions to its contaminated wastewater problem. If the
                              wastewater problem is not resolved, RMI could generate between
                              890,000 and 1.8 million gallons of radioactive wastewater in
                              processing the remaining AEMP soil.

                              Until recently, the Department did not adequately monitor RMI's
                              activities to ensure that the facility was operating as planned.
                              Despite cost increases, the Department continued to fund the soil
                              washing project without requiring solutions for technical problems.
                              In fact, the Department spent about $100,000 in FY 2001, and RMI
                              requested an additional $715,000 in FY 2002 to test solutions for the
                              oversize materials problem and research alternatives for the
                              contaminated wastewater problem. Prior to RMI's FY 2002 budget
                              request, the Department had not required RMI to fix known
                              technical problems with the soil washing project. However, as of
                              October 30, 2001, the Ohio Field Office was evaluating RMI's
                              request for additional funds, and reevaluating the merits of soil
                              washing at the AEMP.

Facility Provided Little or   As a result, the Department has invested $6.3 million in a facility
No Benefit, and Offsite       that has provided little or no value-added benefit. Also, the
Disposal Would Cost           Department could save between $6.1 million and $13.3 million by
Less                          disposing of its remaining contaminated soil offsite rather than using
                              the soil washing facility. These savings are dependent on the volume
                              of contaminated soil needing treatment at the AEMP.




Page 4                                                                           Details of Finding
RECOMMENDATIONS    We recommend that the Manager, Ohio Field Office:

                          1. Discontinue funding for soil washing at the AEMP; and,

                          2. Direct RMI to follow the original plan, which was to ship
                             contaminated soil offsite.

MANAGEMENT         Management concurred with the audit finding and recommendation 1.
REACTION           It agreed to discontinue funding for soil washing and did not approve
                   funding for FY 2002. With reference to recommendation 2,
                   management did not agree to require RMI to ship contaminated soil
                   offsite for treatment. Management has deferred action on this
                   recommendation pending completion of an internal evaluation to
                   establish the most economical method for completing the entire
                   cleanup and closure of the AEMP by FY 2006.

                   Management also disagreed with our conclusion that until recently the
                   Department did not adequately monitor RMI's activities to ensure the
                   facility was operating as planned. Management stated that at the time
                   soil washing was selected as a remediation approach, it appeared to be
                   the most cost-effective option available. In addition, soil washing may
                   have triggered reductions in commercial soil disposal costs. Further,
                   management stated that it was well aware of the unexpected problems
                   encountered during the first campaign and sought corrective action
                   well before the OIG became involved.

AUDITOR COMMENTS   Management's action to recommendation 1 is responsive. With
                   reference to recommendation 2, while we are disappointed that
                   management chose not to immediately direct RMI to ship
                   contaminated soil offsite, we recognize management's desire to
                   conduct an internal review. We are confident, based on our own
                   analysis, that this review will show that the most cost-effective
                   method for remediating soils at the AEMP is to ship contaminated
                   soils offsite. We also recognize that soil washing may have been the
                   most cost-effective alternative at the time it was selected as a
                   remediation approach, and may have contributed to reductions in
                   commercial soil disposal costs. However, management did not
                   adequately monitor RMI's activities to ensure the facility was
                   operating as planned. If they had, the technical challenges that were
                   identified in April 1995 would have been resolved, 95 percent of the
                   soils would have been treated during the first campaign, and RMI
                   would not have generated 246,000 gallons of contaminated
                   wastewater during the first campaign.


Page 5                                            Recommendations and Comments
Appendix 1

SCOPE         The audit was performed from June 4, 2001, to November 8, 2001, at
              the Ashtabula Environmental Management Project (AEMP) in
              Ashtabula, Ohio, and the Ohio Field Office in Miamisburg, Ohio. The
              audit included a review of the Department's and RMI Titanium
              Company's (RMI) activities related to soil washing from FY 1995 to
              FY 2001.

METHODOLOGY   To accomplish the audit objective, we:

                   •   Reviewed the Department's expectations for soil washing at
                       the AEMP;

                   •   Assessed the terms and conditions of the Department's
                       contract with RMI;

                   •   Reviewed RMI’s cost estimates for soil washing at the AEMP;

                   •   Evaluated RMI's baselines for project completion; and,

                   •   Compared the life-cycle cost of soil washing to the cost of
                       direct disposal.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of the Department's contract with RMI,
              the Department's Accelerating Cleanup: Paths to Closure Strategy, and
              RMI's Ohio Department of Health license for radioactive material. We
              determined that performance measures were established in accordance
              with the Government Performance and Results Act of 1993; however,
              as stated in the report, the Department did not hold RMI accountable for
              achieving those measures. We did not rely on computer-processed data
              to achieve our audit objective.

              Management waived the exit conference.




Page 6                                                     Scope and Methodology
Appendix 2




Page 7       Management's Comments
Page 8   Management's Comments
                                                                              IG Report No.: DOE/IG-0542

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
